                                                  March 30, 2004




MEMORANDUM TO:                  William D. Travers
                                Executive Director for Operations



FROM:                           Stephen D. Dingbaum/RA/
                                Assistant Inspector General for Audits


SUBJECT:                        MEMORANDUM REPORT: REVIEW OF NRC’S REACTOR
                                OPERATING EXPERIENCE TASK FORCE REPORT
                                (OIG-04-A-13)


As part of the Office of the Inspector General’s (OIG) current audit of NRC’s commercial
nuclear power plant baseline inspection program, OIG examined NRC’s effort to effectively
obtain and use information from operating experience. In addition, as a result of lessons-
learned from significant performance deficiencies at the Davis-Besse nuclear power plant,1
NRC initiated its own task force review of the use of operating experience. Rather than
duplicate NRC’s evaluation, OIG reviewed the operating experience task force’s final report.2
Because NRC will be implementing task force recommendations in the near future, this
memorandum report is being issued so that you can use the results of OIG’s review in your
implementation of the task force report.

BACKGROUND

Operating experience is a broad term that has evolved to describe NRC and licensee evaluation
and use of operational safety data. NRC’s systematic collection and evaluation of such data is
an important part of its mission to protect public health and safety. Operating experience in this
context includes a broad range of information about events and conditions at power plants.
This includes, among other sources, information gathered from: Title 10, Code of Federal


        1
               NRC’s Oversight of Davis-Besse Boric Acid Leakage and Corrosion During the April 2000
               Refueling Outage, NRC OIG Event Inquiry, Case No. 03-02S, October 17, 2003.
        2
               Memorandum dated November 26, 2003, from Charles Ader, Manager, Operating Experience
               Task Force, to the members of the task force steering committee, Subject: Reactor Operating
               Experience Task Force Report.
                                              Review of NRC’s Reactor Operating Experience Task Force Report

Regulations (10 CFR) Part 50.72 notifications,3 10 CFR Part 50.73 Licensee Event Reports,4
10 CFR Part 21 reports,5 component failure data, inspection reports, industry reports, and
foreign operating experience reports. Lessons learned from evaluating operating experience
provide a unique and valuable tool to (1) prevent recurrence of past safety-significant events
and (2) identify and resolve new safety issues and, thereby, avoid more serious events in the
future. Operating experience information is also important in evaluating the effectiveness of
NRC’s regulatory programs and for informing the public about NRC licensees’ performance. To
be effective, the agency’s operating experience program must support and work in concert with
agency programs involved in licensing and oversight of nuclear power plants.

       Analysis and Evaluation of Operational Data

In July 1979,6 following the accident at the Three Mile Island Nuclear Power Plant7 and a critical
General Accounting Office report,8 the Commission approved the creation of an agency-wide
Operational Data and Analysis Group, which reported directly to the Executive Director for
Operations. Subsequently, NRC created an independent Office for Analysis and Evaluation of
Operational Data (AEOD) with the responsibility for analyzing and evaluating operational safety
data associated with all NRC activities. AEOD was also charged with providing feedback on the
lessons of experience to improve the safety of licensed operations, assessing the
“effectiveness of the agency-wide program,” and acting as a focal point for interaction with
outside organizations for operational safety data analysis and evaluation. Also in 1979, the

       3
               10 CFR Part 50.72, Immediate notification requirements for operating nuclear power reactors,
               generally requires operating reactors to notify the NRC Operations Center via the Emergency
               Notification System of (1) the declaration of any of the Emergency Classes specified in the
               licensee’s approved Emergency Plan, or (2) certain identified non-emergency events that occurred
               within three years of the date of discovery.
       4
               10 CFR Part 50.73, Licensee event report system, specifies when, and how, nuclear power plant
               license holders must notify NRC of plant events. Licensees must submit a Licensee Event Report
               to NRC within 60 days after the discovery of any of the events specified in this regulation.
       5
               10 CFR Part 21 requires certain individuals who obtain information reasonably indicating: (a) that a
               facility, activity or basic component supplied to such facility or activity fails to comply with the
               Atomic Energy Act of 1954, as amended, or any applicable rule, regulation, order, or license of the
               Commission relating to substantial safety hazards or (b) that the facility, activity, or basic
               component supplied to such facility or activity contains defects, which could create a substantial
               safety hazard, to immediately notify the Commission unless he has actual knowledge that the
               Commission has been adequately informed.
       6
               U.S. Nuclear Regulatory Commission, memorandum from S. Chilk to L. Gossick, Subject:
               SECY-79-371 – Recommendations on Operational Data Analysis and Evaluation for Nuclear
               Power Plants (Task Force Report), July 12, 1979.
       7
               U.S. Nuclear Regulatory Commission, M. Rogovin et al., “Three Mile Island, A Report to the
               Commissioners and to the Public,” January 1980.
       8
               United States General Accounting Office, “Reporting Unscheduled Events At Commercial Nuclear
               Facilities: Opportunities to Improve Nuclear Regulatory Commission Oversight,” January 1979.
               GAO found that NRC had no systematic, defined, or dedicated program to analyze operating
               experience and feed back the lessons of experience to licensees and to the nuclear industry.

                                                       2
                                           Review of NRC’s Reactor Operating Experience Task Force Report

nuclear industry took its own action and created the Institute of Nuclear Power Operations, in
part to provide an independent capability to evaluate operational experience and feed back
lessons learned to licensees.

In 1998, the Commission approved a staff proposal for consolidating AEOD functions into other
program offices. The Commission also recognized that the lessons learned from the
independent assessment of operational events must continue to be shared with the nuclear
industry to help improve the safety of licensed operations and to assess the effectiveness of
agency-wide programs. The Commission further noted that it is important that these functions
continue with a degree of independence and, in particular, remain independent of licensing
functions.9

       Davis-Besse Lessons Learned Task Force

A significant event at the Davis-Besse Nuclear Power Station, located in Oak Harbor, Ohio,
again raised questions regarding the effectiveness of NRC’s operating experience program.
During February and March 2002, the licensee for Davis-Besse conducted inspections of
nozzles entering the head of the reactor pressure vessel, the specially designed container that
houses the reactor core and the control rods that regulate the power output of the reactor. The
licensee found that three nozzles had indications of cracking, resulting in leakage from the
reactor's pressure boundary, which created a large cavity in the reactor pressure vessel head.
Subsequently, NRC determined that the reactor pressure vessel head degradation and control
rod drive mechanism nozzle cracking resulted from significant performance deficiencies at the
plant.

As a result of this event, the agency established the Davis-Besse Lessons Learned Task Force
(DBLLTF). The DBLLTF generated a report that contained recommendations for operating
experience program improvements. The DBLLTF noted that, following previous program
evaluations, NRC had reduced in scope or eliminated a number of specific operating
experience programs. However, NRC had not systematically assessed the impact of those
changes on the effectiveness of the operating experience program. Subsequently, as part of
the action plan to address the recommendations of the DBLLTF, NRC formed the Reactor
Operating Experience Task Force (ROETF) to evaluate NRC’s reactor operating experience
program and to recommend specific program improvements.

In November 2003, the ROETF issued its final report which contained assessments of:

       C      the reactor operating experience program,
       C      the scope and adequacy of NRC requirements governing the licensee review of
              operating experience, and
       C      the effectiveness of the generic issues program.



       9
              U.S. Nuclear Regulatory Commission, Staff Requirements Memorandum, “SECY-98-228 –
              Proposed Streamlining and Consolidation of AEOD Functions and Responsibilities,” December 10,
              1998.

                                                   3
                                           Review of NRC’s Reactor Operating Experience Task Force Report

The ROETF made 21 recommendations to improve the reactor operating experience program
and 3 recommendations to improve the generic issues program. The ROETF concluded that
the scope and adequacy of NRC requirements related to licensee review of operating
experience were currently acceptable and made no specific recommendations in that area.

       Results of OIG Report Review

Overall, the ROETF report is comprehensive. The conclusions and recommendations are
adequate to address the program weaknesses that the ROETF identified, as well as many of
the weaknesses OIG has identified to date during current audit work in the baseline inspection
program area. However, there are areas where the report’s recommendations should be
strengthened.

C      Program Objectives (Page 9)10

The ROETF recommends three objectives for the agency’s reactor operating experience
program. However, the objectives have no measurable performance aspects. For example,
Objective 1 states that operating experience is collected, evaluated, communicated, and
applied to support the agency goal of ensuring safety. This objective should be revised to
include measurable aspects of performance. The description of this objective, provided in the
report, would itself make a better objective - “The agency will have an effective, coordinated
program to systematically collect and evaluate OE [operating experience], identify and resolve
safety issues in a timely manner, and apply lessons learned from OE to support the agency
goal of ensuring safety.”

In addition, to ensure management-level focus on this important area, the activities should be
specifically captured in the Office of Nuclear Reactor Regulation’s operating plan with
performance measures and targets. Although agency guidance requires performance
measures and targets to gauge program effectiveness, the current operating plan does not
contain any performance measures or targets for the operating experience program. In
addition, the agency should work to develop measures and targets for other performance
aspects of the program, such as quality and timeliness.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

(1)    Revise the program objectives to include measurable performance aspects.

(2)    Create performance measures and targets for the operating experience program, in
       accordance with agency guidance.




       10
              Page numbers shown with the topics correspond to the Reactor Operating Experience Task Force
              Report.

                                                   4
                                         Review of NRC’s Reactor Operating Experience Task Force Report

C      Independence (Pages 17-18)

Following the accident at Three Mile Island, an agency task force noted that the role of
independence was an important consideration in the evaluation of operating experience. The
task force found a strong need for a dedicated independent group for the analysis of operating
experience. The task force was concerned that otherwise the likelihood was “unacceptably
high that the required competence and perspective will inevitably be compromised by other
demands on their resources and independence.” The task force could not reach a consensus
recommendation on the location of the operational experience analysis and evaluation function.
However, it did recognize the need for balance between the benefit from closeness to the user
offices and the independent perspective gained from a separate organization.

The ROETF stated that it continues to believe that independence is important and that the
primary operating experience functions require dedicated resources that are not vulnerable to
being redirected due to other “problems of the day.” However, the ROETF came to no clear
conclusion regarding the degree of independence of the operating experience function stating
that it believes that the independence of perspective for the analysis and evaluation functions
continues to be an important element of an operating experience program. The ROETF
indicated that a decision on the location of these functions involves a balancing of the
importance of an independent perspective with the challenges in obtaining buy-in from the
operating experience users. Since addressing organizational issues regarding the operating
experience program was outside the scope of its charter, the ROETF made no
recommendation regarding this concern.

The ability of staff to effectively obtain and objectively evaluate operating experience for its
impact on NRC oversight programs may be compromised if the independence of the function is
not clearly defined. In all matters related to evaluation of operating experience, staff assigned
should be free both in fact and appearance from personal, external, and organizational
impairments to independence. The operational experience staff must maintain independence
so that opinions, conclusions, judgments, and recommendations will be impartial and will be
viewed as impartial by knowledgeable third parties.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

(3)    Establish an independent operating experience function and locate that function at the
       appropriate organizational level.

C      Sources of Operating Experience (Page 20)

The ROETF reviewed the Agencywide Documents Access and Management System (ADAMS)
for sources of operating experience information and identified a number of problems. For
example, the task force found instances of:




                                                5
                                             Review of NRC’s Reactor Operating Experience Task Force Report



C      incorrectly categorized documents,
C      overlapping document types,
C      general document types with a wide variety of topics, and
C      difficulty retrieving relevant legacy documents.

OIG also identified similar difficulties with the retrieval of information from ADAMS. For
example:

C      One program official told OIG that, in one instance, finding a specific document in
       ADAMS took more than 40 minutes of searching even when the existence and nature of
       the document was known.

C      Another program official told OIG that it takes three to four tries to find anything, even
       when the official knows exactly what he is looking for. In addition, the official said that
       he has a level of comfort about what he finds only when he knows a document should
       be there. If he is searching for documents of which he may not be actually aware, then
       he is never comfortable that his search efforts found all of the relevant documents.

C      OIG reported previously that inspection staff repeatedly cited ADAMS as a concern and
       stated that it is difficult to locate information in ADAMS.11

Although the report notes that some of the ROETF concerns might be addressed by existing
plans for ADAMS improvements, the task force made no recommendations to correct the
identified deficiencies.

In recognition of its increasing attention to the importance of operating experience, NRC has
developed an internal operating experience web site. Additionally, the agency has a multi-office
effort underway to develop a publicly available external web site. OIG analysis indicates that
management has not made clear decisions as to whether all operating experience information
in ADAMS will be replicated on the web sites or vice versa. It is important that members of the
public have access to operating experience information. However, it is vital that NRC staff be
able to effectively and efficiently locate and retrieve operating experience data to ensure they
can evaluate the impact of the information on critical regulatory functions, such as inspections.
Therefore, the following OIG recommendations are focused on improvements for NRC staff.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

(4)    Develop and implement an action plan to enhance the ability of staff to retrieve
       operating experience information from ADAMS, including identified issues associated
       with data entry and categorization.


       11
               OIG-03-A-10, Headquarters Action Needed on Issues Identified from Regional Audits, February
               26, 2003, Page 11.

                                                    6
                                         Review of NRC’s Reactor Operating Experience Task Force Report



(5)    Provide staff clear guidance as to whether operating experience information should be
       obtained from ADAMS or from other sources, such as the operating experience web
       sites.

C      Retrievability of Operating Experience (Page 21)

The ROETF report concludes that:

       “The NRC Web site is improving the access to OE [operating experience], but it
       currently does not include some of the OE databases and information sources
       that could enhance an OE program and it does not yet have an easy search
       and retrieval capability.” [emphasis added]

It is critical that compiled operating experience information made available on the web site have
a user-friendly search and retrieval capability. Numerous inspectors confirmed to the ROETF
and OIG that the ability to readily locate and retrieve operating experience was important to
conducting effective inspections. However, the ROETF recommendations related to this
conclusion do not speak directly to ensuring user-friendly search and retrieval capability for
operating experience information made available on the web site.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

(6)    Improve the usability and accessibility of NRC’s operating experience web pages by
       applying best practices in web design.

•      Communication (No page reference)

OIG’s own Event Inquiry into the incident at Davis-Besse (see footnote 1) determined that there
was ineffective communication among cognizant NRC managers concerning boric acid leakage
and corrosion, which was critical operating experience information. OIG found that the NRC
resident inspectors at Davis-Besse reported numerous instances of boric acid leakage and its
corrosive effects on reactor components to their immediate supervisor. However, these issues
were not raised and discussed during daily management meetings. Consequently, the
recurring reports of boric acid leakage and corrosion were not provided to the senior managers
and NRC Headquarters representatives evaluating potential problems at the plant.

The ROETF made several recommendations to improve various aspects of communication
related to operating experience. In addition, NRC has responded to OIG’s Event Inquiry. OIG’s
review of the ROETF report and NRC’s response leads us to conclude that it is important that
NRC continue to work toward improving communications between, and among, headquarters
and regional staff regarding operating experience issues.




                                                7
                                         Review of NRC’s Reactor Operating Experience Task Force Report

AGENCY COMMENTS

At an exit meeting on March 16, 2004, OIG discussed the report’s content with NRC officials.
While NRC officials generally agreed with the report, they provided some editorial suggestions
which OIG incorporated, as appropriate.

SCOPE AND METHODOLOGY

During its on-going audit of the baseline inspection program, OIG discussed operating
experience with more than 100 inspection program staff and licensee officials, as well as with
members of the ROETF. OIG also reviewed the operating experience web site, numerous
agency documents related to the use of operating experience, and the lessons-learned from the
Davis-Besse event. OIG conducted this work between January 7, 2004 and February 12, 2004,
in accordance with generally accepted Government auditing standards.

Please provide information on the actions taken in response to the recommendations directed
to your office by April 30, 2004. Actions taken or planned are subject to OIG follow up. See
attached instructions for responding to OIG report recommendations.

If you have any questions or concerns regarding this report, please contact Russ Irish at
415-5972 or me at 415-5915.


Attachment: As stated

cc:    Chairman Diaz
       Commissioner McGaffigan
       Commissioner Merrifield




                                                8
                             Review of NRC’s Reactor Operating Experience Task Force Report

R. McOsker, OCM/RAM
B. Torres, ACMUI
B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
E. Hayden, OPA
A. Vietti-Cook, SECY
W. Kane, DEDH/OEDO
C. Paperiello, DEDMRS/OEDO
W.Dean, OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, DEDR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Caldwell, RIII
B. Mallett, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
M. Malloy, OEDO
P. Tressler, OEDO




                                    9
